1
No. 20-107
In the

Supreme Court of the United States
CEDAR POINT NURSERY AND FOWLER
PACKING CO.,
Petitioners,
v.
VICTORIA HASSID, in her official capacity as Chair
of the Agricultural Labor Relations Board, et al.,
Respondents.
On Writ of Certiorari to the United States
Court of Appeals for the Ninth Circuit
___________________
CERTIFICATE OF SERVICE
I, Verónica Meléndez, a member of the Bar of
this Court, do hereby certify pursuant to Supreme
Court Rules 29.3, 29.5, and 37.5 that I have, this 12th
day of February, 2021, caused to be served three (3)
copies of the Brief of California Rural Legal
Assistance, Inc., California Rural Legal Assistance
Foundation, Farmworker Justice, and California
Catholic Conference as Amici Curiae in Support of
Respondents in this proceeding by causing them to be
served by UPS Next Day Air Saver, addressed to
counsel of record at the addresses listed below:
Joshua P. Thompson
Pacific Legal Foundation
930 G Street
Sacramento, California 95814
(916) 419-7111

2
JThompson@pacificlegal.org
Counsel for Petitioners
Joshua Patashnik
Deputy Solicitor General
State of California Department of Justice
455 Golden Gate Avenue, Suite 11000
San Francisco, CA 94102-7004
(415) 510-3896
Josh.Patashnik@doj.ca.gov
Counsel for Respondents
I further certify that, pursuant to Supreme
Court Rule 29.3, I have caused electronic copies of the
brief to be served on the parties at the email
addresses listed above.
I further certify that all persons required to be
served have been served.
February 12, 2021
____________________________

Verónica Meléndez
Counsel of Record
California Rural Legal
Assistance Foundation
2210 K Street, Suite 201
Sacramento, CA 95816
(916) 446-7904, ext. 299
vmelendez@crlaf.org
Counsel for amici curiae

